       WRITTEN STATEMENT OF THE HONORABLE TODD J. ZINSER
                       INSPECTOR GENERAL
                 U.S. DEPARTMENT OF COMMERCE

                             HEARING ON
                 ECONOMIC DEVELOPMENT ADMINISTRATION
                      REAUTHORIZATION ACT OF 2008


                         BEFORE THE
     SUBCOMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE
         COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS
                    UNITED STATES SENATE

                                    September 9, 2008


Mr. Chairman, Ranking Member, and Members of the Subcommittee:

Thank you for inviting us to testify today on the Economic Development Administration
(EDA) Reauthorization Act and our oversight of EDA’s grant programs.

EDA is one of six grant-making agencies within the Department of Commerce that
together typically dispense roughly $2 billion annually to state and local jurisdictions,
nonprofit agencies, and private firms. These federal funds support a variety of economic,
scientific, and technological initiatives to further the Department’s mission. EDA ranked
third in terms of grant dollars dispensed by the Department in FY 2007—awarding $249
million to support a variety of local and regional development activities (table 1).

Effective grants management has been a long-standing challenge
for the federal government because federal grant programs are         Table 1. Commerce Grant-
susceptible to fraud, waste, and abuse if not adequately                   Making Agencies
monitored.                                                                (FY 2007 Awards)


Grant oversight by the Department of Commerce has been a             1. NTIA        $1.01 billion*

significant, ongoing focus of the audit and investigative work of    2. NOAA        $ 975 million
my office. We are currently conducting an audit of grant             3. EDA         $ 249 million
oversight activities used by the Department's various grants         4. NIST        $ 196 million
management offices, including EDA. We expect to issue our
                                                                     5. MBDA        $ 11 million
report early next fiscal year.
                                                                     6. ITA         $ 9.8 million

With regard to EDA, our work historically has focused on the         *NTIA typically awards
                                                                     approximately $20 million in
agency’s two largest programs—Public Works and the                   grants annually. The FY 2007
Revolving Loan Fund (RLF) component of the Economic                  amount includes $1 billion in 1-
                                                                     year money from the Digital
Adjustment Assistance program (table 2).                             Television Transition and Public
                                                                     Safety Act.




                                            1
  Table 2. EDA FY 2008 Program Budget   Since EDA’s last reauthorization in 2004, we have
              (in thousands)            issued 20 audit reports on individual RLFs and
                                        public works projects, and have conducted a
 Public Works             $ 148,050     number of investigations into the activities of
 Economic Adjustment      $ 142,300*    individual grant recipients. My testimony today is
 Planning                 $ 25,380      based primarily on our RLF audit work, which over
 Trade Adjustment         $ 14,100
                                        the years has identified a series of recurring
                                        problems in recipients’ management of funds and
 Technical Assistance     $   9,400
                                        weaknesses in EDA’s regional and headquarters
 Global Climate Change    $   9,400     oversight of them.
 Research                 $    470
 Total                    $ 349,100          Between 2001 and 2006, we conducted 50 audits of
                                             individual RLF recipients to determine whether
  *In recent years, EDA has typically
  received about $250 million in program     they were properly managing the loan funds and
  funds, including approximately $45 million complying with federal requirements. Some of
  for Economic Adjustment. The FY 2008
  amount includes $100 million from a        these audits were requested by EDA, but most of
  supplemental appropriation for disaster    them were initiated as a result of our own surveys
  relief.
                                             of active loan funds. This body of work identified a
                                             series of common problems, prompting us to
conduct a comprehensive audit of the program. In March 2007 we issued our report on
EDA’s oversight, monitoring, and management of its entire portfolio of RLFs—estimated
to be 607 at the time—and EDA’s progress in resolving the problems we had identified in
the 50 audit reports on individual recipients. I would like to first share with the
subcommittee our findings with regard to the RLF program and then briefly comment on
our public works audits and investigative work.

STRONGER MANAGEMENT AND LEADERSHIP BY EDA ARE NEEDED TO CORRECT
PERSISTENT PROBLEMS IN THE RLF PROGRAM

The Revolving Loan Fund Program, established in 1975, provides grants to local
communities to operate a lending program that offers low-interest loans to businesses that
cannot get traditional bank financing. Grant recipients contribute matching dollars to
capitalize the funds. As loans made from the original funding pool are repaid with
interest and fees, the fund is replenished and new loans are made.

Agencies and organizations interested in administering an RLF must demonstrate that the
fund is an integral part of a comprehensive economic development strategy and essential
to meeting its goals. The federal interest in the RLF exists as long as either the fund or its
assets exist.

The RLF program represents a significant federal investment: EDA estimates there are
currently 584 entities operating revolving loan funds, with combined portfolios worth
approximately $850 million—or roughly 3.5 times the size of the agency’s FY 2008
program budget. Despite these sizable assets, at the time of our March 2007 review, staff
assigned to monitor and manage the program averaged only one person in each of EDA’s
six regions.



                                               2
Ineffective oversight has been a common finding in our 50 audits of individual grantees
conducted since 2001, as evidenced by three persistent problems:

   1. Grantees retained too much cash in their loan funds—EDA requires grantees to
      ensure that a certain percentage of total RLF dollars are loaned out at all times,
      typically 75 percent. When grantees routinely fail to do so, they accumulate
      excess cash and are limiting the RLF’s potential benefits to the community’s
      revitalization.

       EDA may lower the capital utilization requirements for RLFs that anticipate
       making large loans relative to the size of their capital base and raise the
       requirement for funds that have a capital base exceeding $4 million. Determining
       appropriate utilization rates for larger RLFs is an important part of managing a
       fund’s lending and excess cash status. EDA failed to make such determinations
       for larger RLF operators we audited: specifically, we identified 23 RLFs that had
       a capital base of over $4 million, yet EDA regional management had evaluated
       only 1 of the 23 for a possible adjustment to the capital utilization standard.

   2. EDA did not ensure that grantees consistently sequestered excess cash. When a
      grant recipient fails to meet its capital utilization target for two consecutive
      reporting periods, EDA may direct the recipient to sequester the excess funds—
      that is, transfer them to another interest-bearing account and remit the
      government’s portion of the interest to the U.S. Treasury. Recipients must get
      EDA approval to withdraw sequestered funds. We audited 33 RLFs for evidence
      of retaining excess cash. Of these, 30 percent maintained excess cash for
      prolonged periods.

   3. Grantees did not comply with federal auditing and reporting requirements. RLF
      grantees are required to submit annual or semiannual reports detailing their loan
      activities, typically within 30 days of the close of a reporting period. It is essential
      that they submit these reports and do so on time so that EDA can monitor RLF
      projects and ensure that operators are complying with federal grant terms and
      conditions. The individual RLF operators we audited often filed reports late or did
      not file them at all.

       By the same token, regional EDA staff generally did not give sufficient review to
       the reports that were filed and often did not follow up with nonreporting operators
       to attempt to obtain their reports. EDA needs to use these reports to more
       effectively monitor the operations of RLF recipients and better manage the RLF
       program.

       EDA staff also often did not ensure that eligible RLF operators complied with the
       Single Audit Act. The act requires RLFs with annual federal expenditures of
       $500,000 or more to obtain a single audit, prepared by independent auditors, and
       submit the resulting report to the Federal Audit Clearinghouse—the central



                                             3
       collection point and distribution center for all single audit reports. EDA staff
       should compare these reports against an RLF’s financial reports to look for
       discrepancies. We found that even when an RLF operator submitted a single audit
       report, EDA did not use the data it contained to help manage the program.

As part of our 2007 review, we looked at what actions EDA had taken to address these
problems. We assessed the effectiveness of the agency’s oversight, monitoring, and
management of the overall program and of its entire portfolio of RLFs. We analyzed
levels of excess cash by reviewing available annual and semiannual reports for all active
RLFs in EDA’s six regions. We also reviewed the extent to which EDA uses single audit
reports to monitor grantees’ administration of their revolving loan funds.

Despite the issues consistently raised in our audit reports over the years and EDA’s own
recognition of serious problems, EDA had not made sufficient progress in strengthening
management of the RLF program.

•   EDA did not have a useful central database containing current, accurate
    information on RLF fund balances or an adequate tracking and oversight system—
    something an EDA task force recommended the agency implement in 1999. If EDA
    had an effective, practical data system that enabled headquarters and regional staff to
    track the status of individual RLFs and oversee the RLF program, it would have the
    information it needs to avoid many of the persistent problems we found. EDA did
    have a limited database that contained some information related to the RLF program,
    but not of the kind and quantity needed to effectively manage it. The database
    reflected an individual fund’s original capitalization, but it did not track changes that
    subsequently occur at each RLF, such as income, losses, and securitizations. As a
    result, EDA managers could not readily determine the current value of the entire RLF
    portfolio or make timely, informed decisions about recipient capital utilization and
    excess cash.

    The agency’s reported RLF assets at the time of our review were $1 billion. We could
    only identify assets of $716 million because EDA did not have reports for all the
    active RLFs. At our recommendation, EDA has since collected all reports and
    determined that the current value of RLF assets is $850 million. A more sophisticated
    tracking system coupled with regular RLF reporting will give EDA the
    comprehensive data it needs to quickly and accurately determine the value of the RLF
    assets it is responsible for monitoring and to identify some portion of the $150 million
    still unaccounted for. It will also allow EDA to track the performance of individual
    loans and to estimate, for the first time, the economic benefits of the RLF program
    separate from the overall Economic Adjustment Assistance program.

•   Recipients were still maintaining excess cash. For the period of our audit, we were
    able to locate reports for 529 of the 607 active RLFs in EDA’s database. We
    determined that 236 of the reporting funds had a combined total of $70 million in
    excess cash; roughly $57 million of this amount represented the federal share (table




                                              4
     3). The actual amount was likely higher because 78 RLFs had not filed financial
     reports and we therefore could not ascertain their fund balances.

     For the RLF program to achieve its goals, the money it provides needs to be used to
     make appropriate loans and not allowed to sit inactive for extended periods in the
     recipients’ bank accounts.

     Table 3. RLF Excess Cash and Fund Balance at September 30, 2005


                                                                 Total
                 Number
                                                 Federal        # RLFs
                 of RLFs          Total                                                     Federal Share
     EDA                                          Share          that
                  with           Excess                                      Fund Balance      of Fund
    Regions                                     of Excess        Filed
                 Excess           Cash                                                         Balance
                                                  Cash          Reports
                  Cash


Atlanta             43       $10,922,618        $8,494,863              90   $133,978,891    $107,244,424
Austin              24         3,430,517         2,920,681              43     41,926,748      35,816,330
Chicago             48        11,494,903         8,929,075              97    119,469,401      85,761,298
Denver              28         2,136,991         1,574,862              92     72,037,693      52,395,068
Philadelphia        48        18,986,483        13,680,418             121    216,523,437     158,158,316
Seattle             45        23,304,476        21,009,876              86    132,010,858     105,131,605
     Total          236       $70,275,988      $56,609,775             529   $715,947,028    $544,507,041




     One of the reasons cited by some EDA staff and RLF administrators for the high
     amounts of excess cash is that when commercial lending rates are low, as they were at
     the time of our audit, EDA’s required minimum 4 percent interest rate may not be
     acceptable to potential loan recipients. Excess cash may then accumulate because the
     RLF cannot make loans at attractive rates. We did not evaluate whether the interest
     rate requirement has been a factor in a loan fund’s excess cash status. EDA has
     informed us that it is considering ways to make this requirement more flexible.
     Beyond that, the agency needs to determine the range of factors that contribute to the
     excess cash problem and address them accordingly.

•    EDA was not sequestering the bulk of eligible funds. We found that EDA did not
     have clear guidance, and EDA regions had inconsistent practices for sequestering
     excess funds. For example, the Austin regional office sought to terminate RLFs that
     reported excess cash for two consecutive reporting periods rather than sequester the
     funds. Atlanta based its sequestration decisions on such factors as a fund’s lending
     plans and the local economic environment, in addition to consistent excess cash
     balances. At the time of our review, RLFs in five of the six regions were carrying $59
     million in excess cash (Chicago was excluded from this calculation); $44 million of
     this amount was eligible for sequestration but only $15 million had actually been
     sequestered (table 4). The portion of eligible funds that was not sequestered cost the
     federal government approximately $1 million in interest payments that under current
     regulations should have been returned to the Treasury.




                                                   5
        Table 4. Excess Cash Sequestered (as of September 30, 2005)
                                Excess Cash
                                                        Amount              Sequestered
                EDA               Amount
                                                      Eligible for            Amount
              Regionsa          9/30/2005
                                                     Sequestration          09/30/2005
                                $ (millions)
         Atlanta                   $10.9                   $ 9.3                   $ 1.8
         Austin                       3.4                    3.2                      .0
         Denver                       2.1                    1.6                      .0
         Philadelphia               19.0                    10.4                    10.5
         Seattle                    23.3                    19.9                     2.3
             Total                 $58.7                   $44.4                   $14.6
          a
              Chicago was judgmentally excluded from this calculation.


    •     Recipients were not meeting reporting requirements. We found that all EDA
          regional offices had problems obtaining required reports (table 5). Approximately
          39 percent of the active RLFs that had filed reports filed them late for the period
          we examined. Nearly 40 percent of the late reports were filed more than 90 days
          beyond the due date. Thirteen percent did not file reports at all. In addition, we
          found many of the reports that were filed were inaccurate. The regions differed in
          their practices for and attention to monitoring grantee compliance with reporting
          requirements, and headquarters did not enforce a consistent approach. Without
          current, accurate reports, EDA managers lack the information they need to make
          timely and informed decisions about a fund’s capital utilization and excess cash,
          the agency risks losing accountability for RLF assets, and there is greater
          opportunity for waste, fraud, and abuse of federal dollars.

Table 5. Status of Grantee Reports Due September 30, 2005

    EDA                Reports         Number          Percent           Reports       Number       Percent
  Regions               Due            Not Filed       Not Filed          Filed       Filed Late   Filed Late
Atlanta                   90               0               0               90             30           33
Austin                    43               0               0               43             13           30
Chicago                  107              10               9               97             36           37
Denver                    94               2               2                92            23           25
Philadelphia             178              57              32               121            43           36
Seattle                   95               9               9                86            60           70

Total                     607              78               13            529              205        39


          EDA was not effectively using single audit reports to manage RLF assets. We
          queried the Federal Audit Clearinghouse to determine whether the required audit
          reports were filed for three of the six EDA regions. We found that nearly
          25 percent of the 197 eligible grantees had not filed these reports for the period of
          our review. Single audit reports contain information that enables EDA to ensure
          recipients have appropriate internal controls for safeguarding federal funds and
          that they are using funds in accordance with grant terms and conditions. They are
          a good management tool, and EDA officials should therefore ensure that grantees
          have the audits conducted and file them with the clearinghouse, and that regional
          staff use the information in the reports to help manage the program. Having said


                                                            6
       that, we note that at the time of our review, EDA had an average of only six staff
       assigned to monitor the 607 active RLFs.

RECOMMENDATIONS TO IMPROVE THE RLF PROGRAM FOCUS ON COMPREHENSIVE,
TOP-DOWN MANAGEMENT REFORMS

Our 2007 audit findings indicated that many of the problems with the RLF program were
rooted in lax EDA leadership and management attention to the program for at least as far
back as our audit work extends. Simply put, the RLF program had insufficient staff
devoted to monitoring, and there was no official with direct responsibility for the
program. Our primary recommendation to EDA was to develop a comprehensive strategy
and plan that has specific, measurable goals and milestones and is built on strong
oversight from the top down. In our view, EDA needed to vest responsibility for
oversight and the program’s successes or failures in a senior agency official who would
ensure that staff at each level in the RLF management chain is held accountable for
specific outcomes and performance measures that target the program’s known problems
and issues.

EDA’s action plan, submitted in May 2007 in response to our report, made this
recommendation a priority. The agency has since given the director of the Office of
Regional Affairs responsibility for monitoring the program, implementing the action
plan, and meeting the milestone dates for EDA’s 30 proposed actions. The Office of
Regional Affairs is responsible for all appropriated funding including Economic
Adjustment Assistance, under which the RLF program operates.

Another of our recommendations addressed in the action plan is that EDA promptly
develop and implement an automated tracking system that provides current, reliable
information on the entire RLF portfolio, such as original capitalization data for individual
RLFs, as well as any subsequent award amendments, deobligations, terminations, and
other changes in fund balances. In addition, it should track grantee reports due and
EDA’s steps to enforce compliance with reporting requirements.

A web-based management/reporting system is under development and EDA officials
expect the system to be in place by March 2009. In the interim, EDA has implemented a
limited database that tracks grantee reporting and sequestration data.

Our work highlighted the need for EDA to develop guidance to ensure greater
consistency among the regions in enforcing RLF requirements. At a minimum, regional
staffs need to ensure that grantees keep required amounts of capital loaned out; submit
accurate, timely financial reports; and undergo single audits. They must sequester excess
cash that sits in loan funds for longer than permissible. And they should recommend
terminating funds that do not meet requirements or do not fulfill the economic
development goals envisioned. Finally, they need to be trained on how to use single audit
reports and other available tools to properly monitor RLF recipients in their jurisdictions.




                                             7
EDA’s action plan addressed each of these concerns. To date EDA has completed new
guidance for determining appropriate capital utilization rates and sequestering excess
cash; revised performance plans for regional staff that contain measurable RLF oversight
metrics; and conducted training for EDA staff in all six regions as well as for RLF
grantees. My office participated in the training efforts by conducting sessions on Single
Audit requirements for EDA staff and RLF administrators.

EDA has also assigned an additional RLF staff person to five of the regions. Once the
automated tracking system is operational, however, EDA should reevaluate its staffing
needs to ensure sufficient oversight of the program to include enforcing reporting
requirements and thoroughly analyzing the reported information so it can be used to
better manage the RLF program.

OUR CRIMINAL INVESTIGATIONS AND AUDITS OF PUBLIC WORKS GRANTS
UNDERSCORE THE NEED FOR CLOSER EDA SCRUTINY

I would now like to briefly discuss some of the issues we have noted in our audits of
public works projects and criminal investigations of grant recipients.

Public works projects account for the bulk of EDA’s program spending, with
$2.86 billion in awards for 1,050 active grants. Public works grants fund projects
intended to upgrade an area’s economic infrastructure—they may be used to build new
roads, enhance water or sewer systems, refurbish commercial facilities, or support a
variety of other redevelopment projects intended to expand a region’s existing economic
base or attract new industry. These are multimillion-dollar projects, and the government’s
investment in them is sizable.

We have audited 10 public works projects with a total value of $45 million since EDA’s
2004 reauthorization. This number represents only a small portion of its public works
portfolio, and we initiated many of these audits at EDA’s request. So while we cannot
generalize our findings, the issues we identified are worth noting.

We questioned significant costs and identified funds to be put to better use of
$13 million because of various violations of EDA grant requirements, such as financial
accounting irregularities, conflicts of interest, and improper procurement procedures.
Four of the10 projects were never completed.

  • For example, our audit of a $6.7 million project that was intended to develop a
    technology park and learning center disclosed the county failed to carry out
    numerous responsibilities, could not finance the local share, and did not provide the
    necessary engineering supervision. More than a year after the grant had expired, the
    park remained without water and other infrastructure and had no prospects for use.
    We questioned all claimed costs, pending EDA’s valuation of the completed portions
    of the project. EDA ultimately disallowed $1.9 million in claimed costs and sought to
    recover the federal share of $900,000.




                                            8
 • Our audit of a $2.3 million grant awarded to a city for infrastructure improvements to
   a proposed industrial park questioned all claimed costs and recommended
   termination of the project. The city’s violations included awarding a subgrant for
   project management to a for-profit developer, failing to ensure full and open
   competition in procuring materials and services, and allowing conflicts of interest—
   the developer, as project manager, executed contracts with a company he controlled
   and with a firm owned by his son-in-law.

 • Our audit of an $8 million EDA grant for construction of a 40,000 square-foot
   business incubator resulted in termination of the project after we found the grantee
   was on the brink of insolvency and had used the grant funds to stay afloat. At our
   recommendation, EDA directed repayment of $2 million in grant funds that had been
   dispersed for construction.

 • Our investigation of an RLF established in 1985 with a $500,000 EDA grant found
   that four of the RLF’s administrators had over the years been using the funds from
   this and other federal programs to compensate themselves as “consultants,” to make
   rent payments for property they owned, and to finance extravagant trips. They were
   convicted in 2004 and ordered to pay restitution and fines totaling nearly $1.7
   million. Two of the defendants were sentenced to 41 months’ in prison.

 • Another case involved a director and assistant director of a community development
   corporation administering an RLF, who made nearly $500,000 in unauthorized loans
   to themselves and to businesses they operated or controlled. They also paid
   themselves approximately $400,000 in fraudulent wages. They authorized the salary
   checks with the signature stamp of the corporation’s secretary-treasurer. The two
   were sentenced in 2005—the director received a 2-year prison term and was ordered
   to pay restitution of nearly $500,000. The assistant director received 36 months’
   probation and a $5,000 fine.

Mr. Chairmen and Members of the Subcommittee, this concludes my statement. I would
be happy to answer questions at this time.




                                           9
